App. 1
APPENDIX A
SEE TX R RAP RULE 47.2 FOR
DESIGNATION AND SIGNING OF OPINIONS.
Court of Appeals of Texas, Corpus Christi-Edinburg.
Donald Chimaobi OKORO, Appellant,
v.
The STATE of Texas, Appellee.
NUMBERS 13-18-00587-CR,
13-18-00593-CR, AND 13-18-00594-CR
Delivered and filed April 23, 2020
Discretionary Review Refused October 21, 2020
On appeal from the 369th District Court of Leon
County, Texas.
Attorneys and Law Firms
Clint F. Sare, Bryan, Hope L. Knight, for Appellee.
Clay S. Conrad, for Appellant
Before Chief Justice Contreras and
Justices Longoria and Hinojosa
MEMORANDUM OPINION
Memorandum Opinion by Justice Hinojosa
Following a guilty plea, appellant Donald Chimaobi
Okoro appeals his convictions for one count of possession of 400 grams or more of Alprazolam (Xanax), a
first-degree felony; one count of possession of 400 grams
or more of an opioid identified as U47700, also a firstdegree felony; and one count of possession of four grams
or more but less than 200 grams of methamphetamine,

App. 2
a second-degree felony. See TEX.HEALTH & SAFETY
CODE ANN. §§ 481.102, 481.104, 481.115, 481.117. By
one issue, Okoro argues that the trial court erred in
denying his motion to suppress evidence obtained from
a traffic stop because law enforcement officers unconstitutionally detained him longer than necessary. We
affirm.
I.

BACKGROUND1

Okoro was indicted on three counts of possession
of a controlled substance. See id. Okoro filed a pretrial
motion to suppress evidence obtained following his
traffic stop, alleging that his stop was unlawfully prolonged. The trial court held a hearing on Okoro’s motion to suppress. Only one witness, Trooper Joel Smith
of the Texas Department of Public Safety, testified.
Smith testified that on August 17, 2017, Okoro
was driving a Toyota Avalon southbound on Interstate
Highway 45 at eighty miles per hour, which was five
miles per hour over the speed limit Smith, a K-9 Officer, signaled his lights to pull the vehicle over. Smith
noticed that, after Okoro pulled onto the improved
shoulder, the vehicle slowly rolled more than twenty
seconds before it came to a complete stop. The total
time from the moment the lights were flashed until
the vehicle stopped was forty-two seconds. This raised
1

This case is before this Court on transfer from the Tenth
Court of Appeals in Waco pursuant to a docket-equalization order
issued by the Supreme Court of Texas. See Tex. Gov’t Code Ann.
Sec. 73.001.

App. 3
Smith’s suspicion because in his experience as a sevenyear trooper who makes approximately one to two
thousand stops a year, a suspect taking a long time to
stop for police after being pulled over can indicate
criminal activity. He testified, for example, that it can
give someone the opportunity to hide a gun or drugs,
or it can give two people opportunity to collaborate a
story.
Smith stated that he approached the vehicle on
the passenger side to talk to the driver, Okoro.2 Smith
noticed that the passenger, Bobbie Clarence Hampton,
stayed on his phone. Smith asked Okoro some basic
questions and got a “weird vibe from the passenger”
based on his body language. According to Smith, Hampton gave him a blank stare, never said anything, and
never got off his phone. Smith asked the men where
they were going – one mentioned they were musicians
“recording” in Dallas and the other mentioned a live
performance. Smith noticed more than two cell phones
in the car. Smith asked Okoro to get out of the car and
accompany him to the trooper vehicle. He told Okoro
that he would issue him a warning if he could verify
insurance. As they were walking to the vehicle, Smith
claimed that Okoro’s “total demeanor change[d]” when
he saw Smith’s K-9 Maya in the back seat of his vehicle. The men entered the vehicle.

2

The trooper explained that approaching on the passenger
side is safer, as the vehicles were pulled over on a busy interstate
highway.

App. 4
Smith verified that the vehicle was insured. He
also checked Okoro’s criminal history and learned that
Okoro “was a convicted felon, he had some misdemeanors, and he had a current open felony in another
county.” At about this time, Smith texted his partner
for backup.
Okoro asked to get out of the trooper vehicle. The
trooper agreed but asked to frisk Okoro for weapons.
Okoro agreed. Upon conducting this frisk, Smith found
approximately $1,000 in cash and another cell phone.
Smith maintained a conversation with Okoro as
they walked back to Okoro’s car, asking about his shoes
and music. He learned that the passenger, Hampton,
rented the vehicle and that the men were on their way
from Houston to Dallas, which Smith declared were
“two major drug hubs.” Smith also said that, in his experience, criminals often rented vehicles to avoid having their personal vehicles become impounded in the
event of an arrest.
Smith asked for consent to search Okoro’s vehicle.
Okoro refused.
The trooper said that the long amount of time it
took Okoro to stop the vehicle, the passenger’s body
language, the multiple cell phones, Okoro’s reaction to
the dog, Okoro’s prior criminal history, and the conflicting stories were some articulable facts that raised his
suspicion that there was criminal activity afoot. When
Smith’s partner, Trooper Mike Asby, arrived approximately fourteen minutes after Okoro was first pulled
over, Smith conducted an open-air sniff test with his

App. 5
K-9 Maya. Smith testified that he waited to conduct
this test until his partner arrived for officer safety reasons. Maya alerted the troopers to possible contraband.
Upon searching the vehicle, the officers found fifty-four
pounds of Xanax bars, thirteen pounds of counterfeit
hydrocodone, forty-five grams of counterfeit oxycodone,
and five grams of methamphetamine.
In the hearing on the motion to suppress, Okoro
explained that he became startled in the car because
he did not expect to see a dog. He also argued that after
Smith had verified insurance, the trooper should have
allowed the men to leave. He claimed that Smith’s
fourteen-minute detention violated Fourth Amendment
principles against unlawful searches and seizures.
Okoro asserted that Smith “prolonged the detention of
Mr. Okoro for a substantial and unreasonable amount
of time with no specific, articulable facts demonstrating a reasonable suspicion of any illegal activity, based
only on inchoate feelings and hunches.”
The trial court denied Okoro’s motion to suppress
and issued the following findings of fact in support of
its decision:
3.

During Trooper Smith’s investigation
into the traffic violation, he developed
reasonable suspicion that the Defendants
may be involved in other criminal activity. Okoro took approximately 42 seconds
to come to a complete stop. He also testified that Defendants gave conflicting stories about the purpose of the trip and
where the Defendants would be staying

App. 6
once they arrived in Dallas. The car was
a third-party rental, which trooper Smith
stated is common for drug traffickers.
Trooper Smith testified that he noticed
multiple cell phones in the car, including
a burner phone. Defendants had criminal
histories involving illegal drugs.
4.

Trooper Smith requested additional officers to the scene for officer safety due to
his reasonable suspicion that the defendants were involved in further criminal activity and the physical size of defendants
compared to the size of Trooper Smith.

5.

Trooper Smith waited for backup before
asking the defendant for consent to
search the vehicle. When the Defendant
denied consent to search the car, trooper
Smith informed the Defendant that he
would have his K-9 perform an open-air
sniff of the vehicle.

6.

The delay from the time Trooper Smith
gathered all the necessary information to
conclude the traffic violation and the time
when Trooper Smith was able to perform
the open[-]air sniff was approximately 14
minutes.

7.

During the open[-]air sniff around the
vehicle, the K-9 alerted to the presence
of contraband. The officers searched the
vehicle and controlled substances were
found.

App. 7
In addition, the court also made the following conclusions of law with respect to its decision to deny the
motion to suppress:
The Court finds that on August 17, 2017, the
Defendants were detained by the Texas Department of Public Safety beyond the investigation into the traffic stop. However, if an
officer develops reasonable suspicion, the detention does not violate the United States and
Texas Constitutions.
An open[-]air search by a drug detecting dog
is not considered a search. According to his
testimony, Trooper Smith did not utilize his K9 earlier because he was waiting for backup
for officer safety.
Considering all of the factors, the Court denies the Motion to Suppress, finding the totality of the circumstances establish objective
reasonable suspicion for the 14 minute detention.
Okoro pleaded guilty to one count of possession of
400 grams or more of Alprazolam (Xanax), one count of
possession of 400 grams or more of an opioid identified
as U-47700, and one count of possession of four grams
or more but less than 200 grams of methamphetamine.3 See id. §§ 481.115, 481.117. Pursuant to a plea
3

The parties agreed to consolidate all three charges into one
case for the purposes of appeal. Trial court cause number 170203CR is appellate cause number 13-18-00587-CR; trial court
cause number 17-0204CR is appellate cause number 13-18-00593CR; and trial court cause number 17-0205CR is appellate cause
number 13-18-00594-CR.

App. 8
agreement, the trial court sentenced him to thirty
years for the first-degree felonies of possession of Alprazolam and U-47700, and twenty years for the second-degree felony of methamphetamine possession, to
be served concurrently. The trial court also certified
Okoro’s right to appeal the motion to suppress ruling.
See TEX. CODE CRIM. PROC. ANN. art. 44.02. Okoro
appeals.
II.

STANDARD OF REVIEW
& APPLICABLE LAW

A. Standard of Review
We review a trial judge’s ruling on a motion to suppress under a bifurcated standard of review. Weems v.
State, 493 S.W.3d 574, 577 (Tex. Crim. App. 2016).
First, we afford almost total deference to a trial judge’s
determination of historical facts. Id. The trial court is
the sole trier of fact and judge of the witnesses’ credibility and the weight to be given to their testimony. Id.
Second, we review a judge’s application of the law to
the facts de novo. Id. We will sustain the judge’s ruling
if the record reasonably supports that ruling and is correct on any theory of law applicable to the case. Id.
When the trial judge makes explicit findings of
fact, as she did here, we afford those findings almost
total deference so long as the record supports them,
regardless of whether the motion to suppress was
granted or denied. State v. Castleberry, 332 S.W.3d 460,
465 (Tex. Crim. App. 2011). Therefore, the prevailing
party is entitled to the “the strongest legitimate view

App. 9
of the evidence and all reasonable inferences that may
be drawn from that evidence.” State v. Garcia-Cantu,
253 S.W.3d 236, 241 (Tex. Crim. App. 2008). We afford
the same amount of deference to the trial judge’s rulings on mixed questions of law and fact, if those rulings
turned on an evaluation of credibility and demeanor.
Castleberry, 332 S.W.3d at 465.
B. Applicable Law
Courts have determined that there are three distinct types of interactions between police and citizens:
(1) consensual encounters, which require no objective
justification; (2) investigatory detentions, which require reasonable suspicion; and (3) arrests, which require probable cause. Id. at 466. An encounter is no
longer consensual when an officer, through physical
force or a showing of authority, has restrained a citizen’s liberty. Id.
Under the Fourth Amendment, a warrantless detention of the person that amounts to less than a fullblown custodial arrest must be justified by reasonable
suspicion. Derichsweiler v. State, 348 S.W.3d 906, 914
(Tex. Crim. App. 2011). This standard is an objective
one that disregards the actual subjective intent of the
arresting officer and looks, instead, to whether there
was an objectively justifiable basis for the detention.
Id. It also looks at the totality of the circumstances.
Id. Circumstances may seem innocent enough in isolation, but an investigative detention may be justified if
the combination of factors suggests the imminence of

App. 10
criminal conduct. Id. “[T]he relevant inquiry is not
whether particular conduct is innocent or criminal, but
the degree of suspicion that attaches to particular noncriminal acts.” Woods v. State, 956 S.W.2d 33, 38 (Tex.
Crim. App. 1997). Moreover, the detaining officer need
not be personally aware of every fact that objectively
supports a reasonable suspicion to detain; rather, “the
cumulative information known to the cooperating officers at the time of the stop is to be considered in
determining whether reasonable suspicion exists.”
Derichsweiler, 348 S.W.3d at 914 (quoting Hoag v.
State, 728 S.W.2d 375, 380 (Tex. Crim. App. 1987)).
During a traffic stop, once the computer check is
completed, and the officer knows that the driver has a
current valid license, no outstanding warrants, and the
car is not stolen, the traffic stop investigation is fully
resolved. Lerma v. State, 543 S.W.3d 184, 191 (Tex.
Crim. App. 2018). “However, if an officer develops reasonable suspicion that the driver or an occupant of
the vehicle is involved in criminal activity, the officer
may continue questioning the individual regardless of
whether the official tasks of a traffic stop have come to
an end.” Id.; see Ramirez-Tamayo v. State, 537 S.W.3d
29, 39 (Tex. Crim. App. 2017).
III.

ANALYSIS

Here, we must give almost total deference to the
trial court’s findings of fact if the record supports them.
See Castleberry, 332 S.W.3d at 465.

App. 11
The trial court heard evidence that: (1) Okoro took
approximately forty-two seconds to come to a complete
stop; (2) Okoro and his passenger gave conflicting stories about the purpose of the trip; (3) the car Okoro
drove was a rental, which Trooper Smith explained was
common among criminals in the drug trade; (4) there
were multiple cell phones in the car, including a burner
phone; and (5) Okoro had a criminal history involving
illegal drugs. There was also testimony that Okoro appeared nervous at the sight of the drug-sniffing K9 dog
Maya.
Although the stop may have been longer than
usual, the court recognized that “Trooper Smith requested additional officers to the scene for officer safety
due to his reasonable suspicion that the defendants
were involved in further criminal activity and the
physical size of defendants compared to the size of
Trooper Smith.” Under our review, the State is entitled
to the “the strongest legitimate view of the evidence
and all reasonable inferences that may be drawn from
that evidence.” Garcia-Cantu, 253 S.W.3d at 241. In
light of the foregoing facts, we conclude that the cumulative information known to Trooper Smith indicated
that reasonable suspicion existed which justified prolonging the detention for further investigation. See
Lerma, 543 S.W.3d at 191; Derichsweiler, 348 S.W.3d at
914. Based on the totality of circumstances, Trooper
Smith had reasonable suspicion that Okoro was involved in criminal activity, allowing him to continue
his stop past the initial traffic stop investigation. See

App. 12
Lerma, 543 S.W.3d at 191; Ramirez-Tamayo v. State,
537 S.W.3d at 39. We overrule Okoro’s sole issue.
IV.

CONCLUSION

We affirm the trial court’s judgment.

App. 13
APPENDIX B
OFFICIAL NOTICE FROM
COURT OF CRIMINAL APPEALS OF TEXAS
P.O. BOX 12308, CAPITOL STATION,
AUSTIN, TEXAS 78711
10/21/2020

COA No. 13-18-00587-CR

OKORO, Donald Chimaobi
Tr. Ct. No. 17-0203CR

PD-550-20

On this day, the Appellant’s petition for discretionary review has been refused.
Deana Williamson, Clerk

OFFICIAL NOTICE FROM
COURT OF CRIMINAL APPEALS OF TEXAS
P.O. BOX 12308, CAPITOL STATION,
AUSTIN, TEXAS 78711
10/21/2020

COA No. 13-18-00593-CR

OKORO, Donald Chimaobi
Tr. Ct. No. 17-0204CR

PD-551-20

On this day, the Appellant’s petition for discretionary review has been refused.
Deana Williamson, Clerk

App. 14
OFFICIAL NOTICE FROM
COURT OF CRIMINAL APPEALS OF TEXAS
P.O. BOX 12308, CAPITOL STATION,
AUSTIN, TEXAS 78711
10/21/2020

COA No. 13-18-00587-CR

OKORO, Donald Chimaobi
Tr. Ct. No. 17-0205

PD-552-20

On this day, the Appellant’s petition for discretionary review has been refused.
Deana Williamson, Clerk

App. 15
APPENDIX C
THIRTEENTH COURT OF APPEALS
Chief Justice
Dori Contreras
Justices
Gina M. Benavides,
Nora L. Longoria,
Leticia Hinojosa,
Gregory T. Perkes,
Jaime Tijerina
Clerk
Kathy S. Mills

Nueces County Courthouse
901 Leopard, 10th Floor
Corpus Christi, Texas 784013
361-888-0416 (TEL)
361-888-0794 (FAX)
Hidalgo County Courthouse
Annex III
100 E. Cano, 5th Floor
Edinburg, Texas 78539
956-318-2405 (Tel)
956-318-2403 (Fax)

June 4, 2020
Hon. Clay S. Conrad LOONEY SMITH & CONRAD, P.C.
RE: Cause Nos. 13-18-00587-CR, 13-18-00593-CR and
13-18-00594-CR
Tr. Ct. Nos. 17-0203CR, 17-0204CR and 17-0205CR
Style: Donald Chimaobi Okoro v. The State of Texas
Appellant’s motion for rehearing en banc in the
above cause was this day DENIED by this this Court.
Very truly yours, Kathy S. Mills, Clerk
cc: Hon. Clint F. Sare (DELIVERED VIA E-MAIL)
Hon. Hope L. Knight (DELIVERED VIA E-MAIL)

